      Department of Homeland Security



   The Preparedness Directorate’s Anti-Deficiency
      Act Violations for Fiscal Year 2006 Shared
         Service Administrative Assessments




OIG-12-21                                   December 2011
                                                             Office O!I1l$pec:lor General

                                                             u.s. Department of Homeland 5«urity
                                                             Washington, DC 20528




                                                             Homeland
                                                             Security
                                       DEC 2 7 2011
                                          Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security ACI a/2002 (Public Law 107-296) by amendment
to the /nspeclOr General ACI of 1978. This is one ofa series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

This report addresses the former Preparedness Directorate's Anti-Deficiency Act
violations for shared and other administrative services. It is based on interviews with
employees and officials of relevant agencies and institutions, direct observations, and a
review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.



                                      Anne L. Richards
                                      Assistant Inspector General for Audits
Table of Contents/Abbreviations
Executive Summary .............................................................................................................1


Background ..........................................................................................................................2


Results of Review ................................................................................................................3


     Fiscal Year 2006 ADA Violations .................................................................................4 


     Internal Controls ............................................................................................................7


Conclusion ...........................................................................................................................7


Recommendations................................................................................................................8


Management Comments and OIG Analysis ........................................................................9 


Appendices
     Appendix A:            Purpose, Scope, and Methodology.......................................................11 

     Appendix B:            Management Comments to the Draft Report .......................................12 

     Appendix C:            Anti-Deficiency Act Violations ............................................................15 

     Appendix D:            Response to the Office of the Chief Financial Officer ........................17 

     Appendix E:            Major Contributors to this Report........................................................19 

     Appendix F:            Report Distribution ..............................................................................20 


Abbreviations
     ADA                                     Anti-Deficiency Act 

     A&E                                     Assessment and Evaluations 

     DHS                                     Department of Homeland Security 

     FY                                      fiscal year            

     GAO                                     Government Accountability Office 

     IAIP                                    Information Analysis and Infrastructure Protection 

     IPIS                                    Infrastructure Protection and Information Security 

     IAA                                     interagency agreement             

     M&A                                     Management and Administration 

     NPPD                                    National Protection and Programs Directorate 

     OCFO                                    Office of the Chief Financial Officer 

     OIG                                     Office of Inspector General 

     OMB                                     Office of Management and Budget 

     PR                                      purchase requisition

OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                 The fiscal year 2007 Department of Homeland Security
                 Appropriations Bill Conference Committee report directed the
                 Government Accountability Office and the Department of
                 Homeland Security, Office of Chief Financial Officer, to review
                 the Preparedness Directorate’s use of fiscal year 2006 program
                 appropriations to fund shared services administrative transactions.
                 According to the Government Accountability Office legal opinion
                 letter, September 17, 2007, the Preparedness Directorate
                 inappropriately pooled its appropriations to fund shared services
                 transactions. Subsequently, the Department hired a contractor to
                 conduct the review. The contractor identified 21 improper uses of
                 program appropriations to fund shared services. The Department
                 concluded that the improper uses were Anti-Deficiency Act
                 violations totaling between $21.7 million and $28.3 million in
                 fiscal year 2006.

                 The objective of this audit was to determine whether the
                 Preparedness Directorate violated the Anti-Deficiency Act when it
                 used program appropriations to pay for crosscutting services such
                 as training, facilities enhancements, and business office operations
                 of mutual benefit to internal components and offices. We concur
                 with the contractor’s methodology used to identify the potential
                 Anti-Deficiency Act violations.

                 We made four recommendations to the National Protection and
                 Programs Directorate. The Office of the Under Secretary
                 concurred with three of the recommendations. Written responses
                 are summarized and evaluated in the body of this report and
                 included in their entirety in appendix B.




             The Preparedness Directorate’s Anti-Deficiency Act Violations for 

               Fiscal Year 2006 Shared Service Administrative Assessments 


                                          Page 1
Background
                        The Department of Homeland Security (DHS) Information
                        Analysis and Infrastructure Protection (IAIP) Directorate was
                        reorganized and renamed the Preparedness Directorate in fiscal
                        year (FY) 2006. During FY 2007, the Preparedness Directorate
                        was further reorganized and renamed the National Protection and
                        Programs Directorate (NPPD).

                        According to the Government Accountability Office (GAO), the
                        DHS FY 2006 congressional budget justification submitted prior to
                        the reorganization, and as amended, was not sufficient to meet the
                        new organizational requirements of the Preparedness Directorate’s
                        Management and Administration (M&A) appropriation. The
                        appropriation did not include enough funding to cover the costs of
                        salaries, DHS shared service fees, and other administrative
                        expenses. To meet the budget shortfall, the Preparedness
                        Directorate elected to pool the M&A and Programs, Projects, and
                        Activities appropriations to fund shared services and other
                        administrative expenses.

                        The FY 2007 DHS Appropriations Bill Conference Committee
                        report directed GAO and the DHS Office of the Chief Financial
                        Officer (OCFO) to review the Preparedness Directorate’s use of
                        program appropriations to fund shared services. GAO issued a
                        legal opinion dated September 17, 2007,1 that the Preparedness
                        Directorate improperly pooled program appropriations to fund
                        shared service transactions and recommended that DHS adjust the
                        affected appropriations and report any Anti-Deficiency Act (ADA)
                        violations, as required by 31 U.S.C. § 1351. DHS hired a
                        contractor to conduct an internal review to determine whether
                        shared services were funded inappropriately and to identify
                        potential ADA violations.

                        On November 26, 2008, the contractor completed its review and
                        provided the results to DHS OCFO. OCFO evaluated the results
                        and incorporated certain of the contractor’s conclusions in a
                        preliminary review report, dated December 17, 2008, to the Chief
                        Financial Officer. DHS concluded that the Preparedness
                        Directorate violated 31 U.S.C. § 1341(a)(1)(A) (a provision of the




1
 GAO, B-308762, Department of Homeland Security’s Use of Shared Services within the Preparedness
Directorate.

                    The Preparedness Directorate’s Anti-Deficiency Act Violations for 

                      Fiscal Year 2006 Shared Service Administrative Assessments 


                                                 Page 2
                           ADA),2 31 U.S.C. § 1301(a)3 (also known as the “purpose
                           statute”), and 31 U.S.C. § 1517(a)4 when it inappropriately used
                           between $21.7 million and $28.3 million in FY 2006 program
                           appropriations to fund shared administrative services. DHS also
                           determined that the Preparedness Directorate’s controls and control
                           policies were insufficient at the time of the ADA violation.

                           On September 14, 2009, DHS requested that the Office of
                           Inspector General (OIG) independently determine whether the
                           Preparedness Directorate violated the ADA, and requested that
                           OIG identify the following:

                                    Title and Treasury symbol of the fund or appropriation
                                    account
                                    Violation amount and date
                                    Who was at fault for the violation
                                    Type of violation
                                    Primary reason or cause for the violation
                                    Statement regarding the adequacy of the system of
                                    administrative control
                                    An analysis of the action taken to prevent recurrence of the
                                    same type of violation.

Results of Review
         During FY 2006, the Preparedness Directorate improperly used program
         appropriations to fund shared services in excess of available appropriations.
         Although the directorate had authority to pool appropriations to fund shared
         services, it did not enter into valid Economy Act agreements and did not properly
         record allocated charges against each benefiting appropriation, as required by the
         account adjustment statute, 31 U.S.C. § 1534. According to GAO, the DHS
         FY 2006 congressional budget justification submitted prior to the reorganization,
         and as amended, did not contain sufficient funding to meet the Preparedness
         Directorate’s M&A requirements.

         We were unable to obtain all of the Preparedness Directorate’s accounting and
         contracting records supporting the shared services transactions. As a result, we
         examined the DHS contractor’s methodology and supporting documentation for

2
  Prohibits an expenditure or obligation exceeding an amount available in an appropriation for that
expenditure or obligation.
3
  Appropriations shall be applied only to objects for which the appropriations were made except as
otherwise provided by law.
4
  Prohibits making or authorizing an expenditure or obligation exceeding an apportionment or
reapportionment, or the amount permitted by regulation.

                      The Preparedness Directorate’s Anti-Deficiency Act Violations for
                        Fiscal Year 2006 Shared Service Administrative Assessments

                                                   Page 3
identifying 21 potential ADA violations during FY 2006. We concurred with the
contractor’s methodology used to identify the purpose and use of Preparedness
Directorate’s program appropriations. However, DHS did not have the
documentation necessary for us to fully conduct our review. We were unable to
extend our audit procedures beyond the contractor’s work to identify which
appropriations should have been charged, how much the separate appropriations
may have benefited from amounts expended, and whether additional parties were
responsible for the identified ADA violations. We recommend that DHS report
21 violations totaling approximately $28 million. To the extent that any of the 21
expenditures should have been charged to the Infrastructure Protection and
Information Security (IPIS) M&A and the Preparedness Directorate’s M&A
accounts, we recommend that NPPD make adjustments to charge those accounts,
and return any available funds to the program appropriations improperly used.

NPPD was unable to provide documentation that the Preparedness Directorate had
internal controls that complied with financial and appropriation law and
regulations. Further, NPPD has not designed effective controls to ensure
compliance with appropriations law and financial regulations. As a result, we
were not able to analyze the actions taken by NPPD to prevent recurrence of the
same type of violation and did not test for violations in subsequent years. We
recommend that NPPD develop and implement effective controls to ensure
compliance with appropriations law and other financial regulations, and test for
violations in subsequent years.

Fiscal Year 2006 ADA Violations
       Purchase requisitions (PRs) for shared services activities were not readily
       identifiable in the Federal Financial Management System or in PRISM.
       As a result, the DHS contractor identified potential shared service ADA
       violations during FY 2006 by examining known shared services
       organization locations and PR categories. Based on these selection
       criteria, the contractor reduced the number of transactions for review from
       50,788 to 123, and the PRs from 808 to 35. These 123 transactions and 35
       PRs were evaluated to determine whether program appropriations were
       improperly used to fund shared services.

       The contractor examined PRs, contracts and interagency agreements
       (IAAs), statements of work, and PR print screens to determine whether
       shared services transactions were authorized and properly funded. NPPD
       was unable to provide documentation necessary to extend our audit
       procedures beyond what the contractor had already identified as selection
       criteria. As a result, we limited our audit procedures to potential ADA
       violations identified by the contractor.



           The Preparedness Directorate’s Anti-Deficiency Act Violations for 

             Fiscal Year 2006 Shared Service Administrative Assessments 


                                        Page 4
                 To determine whether program funds were properly used to fund shared
                 services transactions, DHS’ contractor tested key data to verify—

                          Proper consistency throughout the supporting documentation,
                          Reasonable amounts throughout the funds control life cycle,
                          Funding utilized from the appropriate year, and
                          Funds expended for the purposes for which they were appropriated.

                 The contractor determined that 21 PRs totaling $28,273,975 had no
                 documentation to support the use of IPIS and Assessment and Evaluations
                 (A&E) program appropriations for the shared services. The contractor
                 recommended that the accounts be adjusted to charge those obligations
                 against the IPIS M&A appropriation, and that any available funding be
                 returned to the IPIS and A&E appropriations. Of the 21 ADA violations
                 identified, 18 were for shared services, 2 were for facilities build-out, and
                 1 was for miscellaneous services. Although we agree with the contractor’s
                 methodology for identifying potential ADA violations, we do not agree
                 that all 21 are chargeable to the IPIS M&A appropriation, because the
                 documentation provided does not support that conclusion. It appears that
                 certain of the PRs could have been charged to the IPIS M&A account, but
                 some could have been charged to the Preparedness Directorate’s M&A
                 account instead. The ADA5 requires U.S. government employees to limit
                 expenditures to the amounts authorized in appropriations. Agency heads
                 must promptly report violations to the President, Congress, and the
                 Comptroller General.6 See appendix C for a list of the ADA violations,
                 totaling $28.3 million, that must be reported to the appropriate authorities.

                 The ADA violations occurred because the Preparedness Directorate’s
                 Director of Business Operations improperly used IPIS and A&E program
                 appropriations. The directorate used those funds to pay for purportedly
                 shared services costs even though they were not available for that purpose.
                 Further, there was no documentation to show that the IPIS and A&E
                 programs benefited from the services it paid for. Thus, although each
                 program could have used its funds to pay for administrative services that it
                 received, it could not augment another appropriation by using its funds to
                 pay for services provided to and received by another program. This
                 inappropriate use of funds violated 31 U.S.C. §§ 1301 and 1341(a). The
                 Preparedness Directorate spent money for purposes for which no
                 appropriations were available and did not subsequently adjust its accounts
                 to remedy the improper expenditures. In addition, these transactions


5
  31 USC § 1341(a), “An officer or employee of the United States government…may not make or authorize
an expenditure or obligation exceeding an amount available in an appropriation or fund for the expenditure
or obligation.”
6
  31 USC § 1351; Office of Management and Budget (OMB) Circular A-11, Section 145.

                      The Preparedness Directorate’s Anti-Deficiency Act Violations for
                        Fiscal Year 2006 Shared Service Administrative Assessments

                                                   Page 5
     violated 31 U.S.C. §1532 and section 503 of the FY 2006 DHS
     Appropriations Act, P. L. 109-90, and thus constituted unlawful transfers,
     which the Preparedness Directorate did not remedy. The contracting
     officers and the deputy chief of staff who approved the administrative
     contracts and IAAs that were funded with program appropriations are also
     responsible for the ADA violations.

     Some key Preparedness Directorate personnel were no longer accessible,
     and DHS was unable to provide all the Preparedness Directorate
     documentation. The Preparedness Directorate’s records of financial
     decisions as well as some personnel records were unavailable during our
     review. For example, we were unable to obtain all financial data and
     contracting documentation for the directorate’s shared services
     assessments, records of the decision to fund shared services with program
     appropriations, and the minutes from meetings in which the DHS Office of
     the General Counsel discussed reorganizational resource problems with
     the directorate. Further, position descriptions were not available for
     various Preparedness Directorate personnel, including financial
     management and budget execution staff. As a result, we were unable to
     determine whether additional ADA violations existed and whether other
     individuals were responsible for the ADA violations.

     During the exit conference, Department officials expressed concern that
     OIG did not include senior Preparedness Directorate leadership as
     responsible parties for the ADA violation. In response, the Department
     provided additional documentation related to future budget planning. We
     also conducted an interview with an official who approved one of the
     administrative IAAs. The official indicated that she was verbally directed
     to sign the IAA and had a memorandum supporting this direction.
     However, the additional documents provided by the Department did not
     include a memorandum from senior Preparedness Directorate leadership
     that approved the use of program appropriations to fund shared services.
     As a result, OIG was unable to confirm that senior Preparedness
     Directorate officials were responsible for the ADA violations.

Internal Controls
     NPPD was unable to provide documentation that the Preparedness
     Directorate had internal controls that complied with financial and
     appropriation law and regulations.

     An NPPD official indicated that, until recently, NPPD did not have the
     resources to develop and implement internal controls but it has started to



        The Preparedness Directorate’s Anti-Deficiency Act Violations for 

          Fiscal Year 2006 Shared Service Administrative Assessments 


                                     Page 6
                 hire and contract support to develop processes that address OMB Circular
                 A-123, Management’s Responsibility for Internal Control.7 This circular
                 requires management to establish and maintain internal control to achieve
                 the objectives of effective and efficient operations, reliable financial
                 reporting, and compliance with applicable law and regulations. According
                 to DHS, it has taken steps to improve NPPD’s compliance with
                 appropriations law and financial regulations, including the following:

                          Testing Transactions: On December 19, 2007, DHS reported the
                          results of tests of FY 2007 NPPD shared services purchase
                          requisitions. Of the 69 purchase requisitions totaling $27.1 million
                          tested, only 3 totaling $502,474 were not authorized to use
                          program funds.

                          Issuing New Policies and Procedures: On February 12, 2010, DHS
                          issued an OMB-approved Administrative Control of Funds policy,
                          which establishes responsibility for the administrative control of
                          funds and provides guidance for reporting ADA violations in
                          accordance with OMB Circular A-11.

                          Conducting Training: According to DHS officials, the DHS
                          General Counsel provided Appropriations Law 101 training to
                          NPPD that addressed ADA violations; however, NPPD did not
                          maintain attendance records for this training.

                 NPPD has not established controls to ensure compliance with financial
                 and appropriations law and regulations. Without these controls, NPPD
                 remains at high risk of violating appropriation law and financial
                 regulations.

                 Conclusion
                          We concur with DHS’ methodology used to identify potential
                          ADA violations for the Preparedness Directorate’s shared services
                          transactions that occurred during FY 2006. The Preparedness
                          Directorate’s Business Operations Director improperly used
                          program appropriations to fund administrative shared services
                          when those funds were not available for that purpose.
                          Furthermore, there is no evidence that the IPIS and A&E programs
                          benefited from the services paid for by the directorate. The
                          contracting officers and the deputy chief of staff who approved the


7
  The circular provides guidelines to federal managers on improving the accountability and effectiveness of
federal programs and operations by establishing, assessing, correcting, and reporting on internal control.

                      The Preparedness Directorate’s Anti-Deficiency Act Violations for
                        Fiscal Year 2006 Shared Service Administrative Assessments

                                                   Page 7
      administrative contracts and IAAs that were inappropriately
      funded with program appropriations are also responsible for the
      ADA violations.

      NPPD has not developed and implemented controls for ensuring
      compliance with federal and departmental appropriation and
      financial requirements. NPPD has begun to implement processes
      that address OMB requirements, but has not developed formal
      policies and procedures. Without proper controls, NPPD remains
      at risk for violating appropriations law and incurring additional
      ADA violations.

      During our review, NPPD was unable to produce certain requested
      records from the former Preparedness Directorate. Thus, there may
      be additional ADA violations that we were unable to identify.

Recommendations
      We recommend that the National Protection and Programs
      Directorate:

      Recommendation #1: To the extent that funds are available in the
      Preparedness Directorate’s M&A and the IPIS M&A accounts for
      any of the 21 PRs, adjust the expired appropriations to return the
      available funding to the improperly charged program appropriations
      before the accounts close on September 30, 2011.

      Recommendation #2: Report the FY 2006 Preparedness
      Directorate ADA violations that are not corrected to the President,
      Congress, and the DHS Secretary in compliance with ADA
      reporting requirements. For each violation, the report should
      include title and Treasury symbol (including fiscal year) of the
      appropriation account, the amount involved, the date the violation
      occurred, the name of the official responsible for the violation, the
      type of violation, and the primary reason or cause.

      Recommendation #3: Develop and implement controls to ensure
      compliance with appropriations law and other financial regulations.

      Recommendation #4: Conduct reviews of NPPD’s shared
      services transactions for FYs 2007 to 2010, and identify and report
      any ADA violations according to OMB Circular A-11.




  The Preparedness Directorate’s Anti-Deficiency Act Violations for 

    Fiscal Year 2006 Shared Service Administrative Assessments 


                               Page 8
Management Comments and OIG Analysis
      We obtained written comments on a draft of this report from the
      DHS Under Secretary for NPPD, and have included a copy of the
      comments in appendix B. NPPD concurred with three of our four
      recommendations and provided comments to all four
      recommendations. We summarize and address these comments
      below.

      Response to Recommendation #1

      NPPD concurred. NPPD indicated that it is unable to make the
      recommended adjustments because as of September 30, 2011, the
      accounts involved have closed.

      OIG Analysis

      In accordance with fiscal law, the accounts remained open until
      September 30, 2011. Due to the closed status of the involved
      accounts, no further action is necessary, and we consider this
      recommendation closed.

      Response to Recommendation #2

      NPPD concurred. NPPD indicated that the ADA violations will be
      reported in accordance with OMB Circular A-11.

      OIG Analysis

      We consider NPPD’s proposed action responsive to the
      recommendation and consider the recommendation resolved and
      open until the ADA violations are reported to the appropriate
      officials according to OMB Circular A-11.

      Response to Recommendation #3

      NPPD concurred. It indicated that it has taken actions to ensure
      compliance with appropriations law and financial regulations,
      including fully staffing the Directorate’s financial management
      positions.

      OIG Analysis

      In its response, NPPD noted actions it has taken to strengthen
      controls to address the findings in the report. However, we

  The Preparedness Directorate’s Anti-Deficiency Act Violations for 

    Fiscal Year 2006 Shared Service Administrative Assessments 


                               Page 9
    consider this recommendation unresolved and open until NPPD
    provides an analysis of controls in place to prevent further ADA
    violations, copies of standard operating procedures issued and
    implemented, and a plan to further develop and implement
    remaining procedures.

    Response to Recommendation #4

    NPPD did not concur. NPPD indicated that it does not believe that
    there was a significant risk of shared services–related violations
    from FY 2008 through FY 2010, and therefore it cannot justify the
    expenditure of resources to conduct the recommended reviews.
    NPPD explained that it has stopped pooling funds for shared
    services and has taken actions to strengthen its control
    environment. These actions include the assessment of its FY 2007
    shared services transactions, and the Department’s monitoring of
    the agency’s internal controls through the OMB A-123 process.

    OIG Analysis

    We agree that NPPD has taken actions to prevent further shared
    services violations. However, since NPPD has not fully developed
    and implemented controls to ensure compliance with financial and
    appropriations laws and regulations, it remains at risk of violating
    these requirements. The FY 2007 self-assessment referred to in
    NPPD’s response did identify three shared services transactions
    totaling $502,474 that were potential ADA violations. Therefore,
    the recommendation will remain open and unresolved until NPPD
    provides evidence supporting management’s determination on the
    FY 2007 potential ADA violations. Additionally, NPPD will need
    to provide evidence that it has conducted reviews of its shared
    services transactions for FYs 2008 through 2010 or that it no
    longer pools funds for shared services.




The Preparedness Directorate’s Anti-Deficiency Act Violations for 

  Fiscal Year 2006 Shared Service Administrative Assessments 


                             Page 10
Appendix A
Purpose, Scope, and Methodology

                    Our objective was to determine whether the Preparedness
                    Directorate violated the Anti-Deficiency Act in using program
                    appropriations to pay for crosscutting services such as training,
                    facilities enhancements, and business office operations of mutual
                    benefit to multiple internal components and offices.

                    Because the data for shared services transactions were not readily
                    available, we examined the criteria used by the contractor,
                    including the PRs, contracts and IAAs, statements of work, and
                    print screens, verified the improper funding of shared services
                    transactions, and determined who authorized the contractual
                    obligations and IAAs for the ADA violations.

                    We performed our audit between March and October 2010 at
                    GAO, DHS NPPD, OCFO, and Office of the General Counsel in
                    Washington, DC. We conducted the audit pursuant to the
                    Inspector General Act of 1978, as amended, and according to
                    generally accepted government auditing standards. Those
                    standards require that we plan and perform the audit to obtain
                    sufficient, appropriate evidence to provide a reasonable basis for
                    our findings and conclusions based upon our audit objectives. We
                    believe that the evidence obtained provides a reasonable basis for
                    our findings and conclusions based upon our audit objectives.

                    We would like to thank NPPD for the cooperation and courtesies
                    extended to our staff during this review.




                The Preparedness Directorate’s Anti-Deficiency Act Violations for 

                  Fiscal Year 2006 Shared Service Administrative Assessments 


                                             Page 11
Appendix B
Management Comments to the Draft Report
                                                                         O/lk, of. VIIIlK s.,.,.,
                                                                         Nt1IftMIIl hoIJIdIH. &l1li ""V- ~
                                                                         u.s. DIpM1maII& 01 ......... 8Iauil1
                                                                         Wall ate., DC 2t51t



                                      NOV - 3 2011
                                                                           Homeland
                                                                           Security

   Ms. Anne L. Richards
   Assistant Inspector General for Audits
   Office of Inspector General
   U.S. DcpartmentofHomeland Security
   245 Munay Lane, SW, Building 410
   Washington, DC 20528-0305

   Dear Ms. Richards:

   Re: Office of Inspector General Draft Report. "The Preparedness Directorate 's AnIi-
       Deficiency Violations/or Fiscal Year 2006 Shared Service Administrative Assessments"
       (010 Project No. 10-064-AUD-NPPD)

   1bank you for the opportunity to review and comment on this draft report. The Department of
   Homeland Security (DHS)/NatioDal Protection and Programs Directorate (NPPD) appreciates the
   Office of Inspector Oeneral's (OIO's) work in planning and conducting its review and issuing
   this report, requested by the Department's Office of the Chief Financial Officer. The OIG
   conducted this review to determine whether the fanner Preparedness Directorate violated the
   Antideficiency Act (ADA) when it used program appropriations to pay for crosscutting services
   such as training, facilities enhancemen1s, and business office operations of mutual benefit to
   internal components and offices.

   This situation was tmique because the Preparedness Directorate was in existence for slightly
   more than a year, and almost all of the Federal staff departed the organization upon
   implementation of the Post Katrina Emergency Management Reform Act that disbanded the
   Preparedness Directorate. As the OIG highlighted in the report. this made it extremely difficult
   for the NPPD personnel who were not in place at the time the Preparedness Directorate
   violations occurred to produce docwnentation on how the Preparedness Di.rectorate made
   decisions to apply Administrative Assessments across the Preparedness Directorate offices.

   Following is our response to the OIG's four recommendations.

   Recommendation 1: To tlae extent that fundi are available ill the Preparedness
   Directorate's MicA aDd the IPIS MicA a«ODD" for any of the 21 PRJ, adjust the esplred
   appropriation. to return tile available fuading to the Improperly charged program
   .ppropriatiODt before the accounts close on September 30, 2011.




                     The Preparedness Directorate’s Anti-Deficiency Act Violations for 

                       Fiscal Year 2006 Shared Service Administrative Assessments 


                                                  Page 12
Appendix B
Management Comments to the Draft Report

 Rupo      : Concur. Under nomwl circwns1ances NPPD would make 1he recommended
 adjustments to accounting records. However. NPPD is unable 1.0 do so since as of September 30,
 2011, the accounts involved have closed (in accordance with fiscal law. the budget authority
 expired five y     prio to the end of FY 201 t). Therefore,   P i not planning any        ·tiona!
 actions on this recommendation.

     e o d a ' 2:            rt t • FY 2006           . 8 lrectorate ADA vlolatio      at
 .re D.ot correct to tbe PreDde t, COlIlI'a.t lid e DH          retary III eompHance with
 ADA reportiDl require: eats, For eae       "Uon, tle report should incla title aD
 Treuury Iymb.l (iDdudiDtl the 1iIcaI year) of tile appropriatio acCOUIlt, e ."Ollllt
 iDvolv the date tlae 'olallo             ,           f til ftldal    po I Ii
  -iola '0 the type of violatioD, d the p' ary reaIOD or cause.

 Reepo        0   cur. The     A violations will be appropriately reported, in ac:c:ordance with lhc
 Office of Management and Budget (OMB) Circular A·ll, and will include the name of the
 official(s) responsible based on our ongoing review of the entire rcc;ord.

 Reeo .. end 0 3: Deve op              imp      eat CODtro to caslin co plince witll
 appropmtioBi law .Dd 0 er              dalrepJad

 RelpoIlIe: Concur, NPPD bas taken many ction.s since its inception in April 2001 (at which
 time the Preparedness Directorate disbanded) to eosme compliance with appropriations law and
 finane' reguI' 0 -. As ofJune 2011 J 100 percent of the Directorate's authorized Fede
 financial management positions were filled and internal control efforts strength cd.

 NPPD h     also i ued and implemented se Ilral relevant standard operating procedure and
 several others are at various stages of devclopmeDt and implementation. For example. NPPD has
 implemented Proceduresfor Reporting Antidejiciency Act Violations. Procedures fOT Processing
 PUTCh4,r, Requlsltlon.s and Obligatin. Documenls~ Procedures/or Invoice Processing,
 p,.ocedure~'for Intra~GOYernmenJaJ Payment and Collection Processing. and Funds Control and
 Fi1u:zncjaJ Document Processing. Additionally. NPPD has increased its focus on monitoring
 internal contro . This . tude· performing additional asse·'   ts of internal controls over
 fma:ncial repol1ing. documentiQg aDd updatiDg docwnen1ation on :financiallIl.8D8gcment
 processes and mapping, and monitoring the implemeutation of conective actions.

 Reco     .cadati 4: Coaduct review. ofNPPD'. - .- . _nice t       ctlo lor FY.1OO7
 to 2010, ad identify ad report any ADA violatioas accontiDl to OMB CireuJar A-H,

 R.poue: NOD~ncur. The pooling of funds for shared services was unique to the fonncr
 Preparedness Directorate and has not continued. Tbc same contractor that conducted the
 IT 2006 ADA ·ysi            perfol1l1cd 811 es meal of FY 2007 transactions. which confirmed
 that PPO bad changed i -processes and that the practice ofpooling funds fo shared      ices
 had been discontinued.

 NPPO bas made severa1 dler improvemelUS to streo&then its control· vironment, including
 changes in NPPD's financial D:WIlIlgeIDentsenior-level staff ia FY 2008.




                    The Preparedness Directorate’s Anti-Deficiency Act Violations for 

                      Fiscal Year 2006 Shared Service Administrative Assessments 


                                                 Page 13
Appendix B
Management Comments to the Draft Report

 Current NPPD leadership has implemented improved procedures and remains committed to
 strengthening the control environment to lessen the possibility of future ADA violations. In
 addition, the Depamnent bas continued to monitor internal controls at NPPO through the OMB
 A-123 process, including NPPO's assessments ofbudgetary resource and payment management
 processes, and NPPO's implementation of corrective action plans when necessary.
 Given these actions and a heightened commitment to a strong intemal control environment,
 coupled with the results of the assessment of FY 2001 transactions, NPPO does not believe a
 significant risk of a violation related to shared services baving occurred during FY 2008 through
 FY 2010 exists. NPPO, therefore, cannot justify the expenditure of increasingly scarce resources
 to conduct the recommended review given competing priorities and the overaU lack ofevidence
 that any violations exist

 Again, we thank. you for the opportunity to review and provide comment on this draft report, and
 we look forward to working with you on future homeland security engagements.

                                               Sincerely,


                                                 Ul;
                                               Rand Beers
                                               Under Secretary




                     The Preparedness Directorate’s Anti-Deficiency Act Violations for 

                       Fiscal Year 2006 Shared Service Administrative Assessments 


                                                  Page 14
              Appendix C
              Anti-Deficiency Act Violations

                                     Obligated        Treasury Fund Title,      Program        Reason for         Program     Violation
             PR / Contract No.       Amount         Symbol, and Fiscal Year     Name*          Violation          Code No.      Date
       RPIT-06-00034 /                                                                       Shared Service
                                                                                                                              8/21/2006
 1     HSHQDC06F00232                $2,128,480    NPPD IPIS 70X0565 06/07       NS/EP       Purpose Statue      M6_4080.01
       RPIT-06-00035 /                                                                       Shared Service
                                                                                                                              9/29/2006
 2     HSHQDC06F00337                 $415,174     NPPD IPIS 70X0565 06/07       NS/EP       Purpose Statue      M6_4080.01
       RPIT-06-00032 /                                                                       Shared Service
                                                                                                                              5/31/2006
 3     HSHQDC06X00377                 $561,000     NPPD IPIS 70X0565 06/07        CS         Purpose Statue      M6_4070.01
       RIIT-06-00007 /                                                                       Shared Service
                                                                                                                              5/24/2006
 4     HSHQPA05X00715/P00004         $4,264,520    NPPD IPIS 70X0565 06/07        PA         Purpose Statue      M6_4050.04
       RPIT-06-00017 /                                                                       Shared Service
                                                                                                                              7/18/2006
 5     HSHQPA05X01058                $2,375,774    NPPD IPIS 70X0565 06/07       CIOP        Purpose Statue      M6_4060.12
       RPIP-06-00037 /                                                                       Shared Service
                                                                                                                              9/30/2006
 6     HSHQPA06A00010                $2,374,026    NPPD IPIS 70X0565 06/07       CIIE        Purpose Statue      M6_4020.01
                                                                                 CIIE                             A5_4020
 7     RIBO-06-00002 /                                                           OUS         Shared Service       SA_1010      4/7/2006
       HSHQDC06F00061                $4,979,727    A&E IAIP 70 0911 05/06       M&A IT       Purpose Statue       MA_1050
                                                                                 CIIE                            M6_4020.08
       RPUS-06-00005 /                $996,660     NPPD IPIS 70X0565 06/07       CIOP        Shared Service      M6_4060.12    8/4/2006
 8     HSHQDC06F00127                                                            OUS         Purpose Statue       SA_1010
       RPUS-06-00012 /                                                                       Shared Service
 9                                    $497,819     NPPD IPIS 70X0565 06/07       NS/EP                           M6_4080.01   9/29/2006
       HSHQDC06J00445                                                                        Purpose Statue
       RPIT-06-0051 /                                                                        Shared Service
       RPIT-06-00033 /                                                                       Purpose Statue                    7/6/2006
10     HSHQPC05FR00004                $694,000     A&E IAIP 70 0911 05/06        CIOP                            A5_4060.01
       RPIT-06-00015 /               $3,795,085    NPPD IPIS 70X0565 06/07        CIIE       Shared Service      M6_4020.01
11 /                                                                                         Purpose Statue
       HSHQDC06J00187                 $586,000     A&E IAIP70 0911 05/06          BIO                             A5_4040      8/8/2006
 12
                                                                                 NS/EP                           M6_4080.01
       RPIT-06-00050 /                                                                       Shared Service
                                                                                                                              8/29/2006
13     HSSCHQ04F00761                 $125,168     A&E IAIP 70 0911 05/06         BIO        Purpose Statue       A5_4040
       RPBO-06-00031 /                                                                       Shared Service
14                                                                                                                            6/16/2006
       HSHQDC06X00359                 $188,758     A&E IAIP70 0911 05/06          BIO        Purpose Statue       A5_4040
       NFIC060016 /                                                                         Facility Build-out
15                                                                                                                            9/26/2006
       7042GT62400016                $2,300,000    A&E IAIP 70 0911 05/06         CIIE       Purpose Statue      A5_4020.01
                                                                                            Facility Build-out
                                                                                                                              9/27/2006
16     NIFC-06-10018 / N0034908      $1,600,000    NPPD IPIS 70X0565 06/07       NS/EP       Purpose Statue      M6_4080.01
       RIBO-06-00007 /                                                                       Shared Service
17                                                                                           Purpose Statue                   12/19/2005
       HSHQDC06F00032                 $70,000      A&E IAIP 70 0911 05/06        CAE                              A5_5010
                                                                                             Administrative
       RPBO-06-00037A /                                                                      Service Purpose                  9/26/2006
18     HSHQDC06C00109                 $165,000     NPPD IPIS 70X0565 06/07       CIOP             Statue          M6_4060
       RPFI-06-00002 /                                                                       Shared Service
19     HSSCHQ04A00519                                                                        Purpose Statue                    2/6/2006
       HSHQDC05J00159                 $19,696      A&E IAIP 70 0911 05/06        CAE                              A5_5010
       RPUS-06-00017 /                                                                       Shared Service
                                                                                                                              9/29/2006
20     HSHQDC06J00468                 $40,348      NPPD IPIS 70X0565 06/07       CIOP        Purpose Statue       M6_4060
                                                                                  PA         Shared Service       M6_4050
                                                                                                                              9/30/2006
21     RPBO-06-2000 / No Contract     $96,740      NPPD IPIS 70X0565 06/07       CIOP        Purpose Statue       M6_4060
                                    $28,273,975




                                    The Preparedness Directorate’s Anti-Deficiency Act Violations for 

                                      Fiscal Year 2006 Shared Service Administrative Assessments 


                                                                 Page 15

Appendix C
Anti-Deficiency Act Violations

* Note to Table

Program Name Abbreviations:

NS/EP – Telecommunications
CS – Cyber Security
PA – Protective Actions
CIOP – Critical Infrastructure Outreach and Partnership
CIIE – Critical Infrastructure Identification and Evaluation
OUS – Office of the Under Secretary
M&A IT – Management & Administration Information Technology
BIO – Biosurveillance
CAE – Competitive Analysis and Evaluation




                  The Preparedness Directorate’s Anti-Deficiency Act Violations for 

                    Fiscal Year 2006 Shared Service Administrative Assessments 


                                               Page 16
Appendix D
Response to the Office of the Chief Financial Officer

                     Below are our responses to the Office of the Chief Financial
                     Officer’s ADA investigation request dated September 14, 2009.

                          1.	 The title and Treasury symbol (including fiscal year) of the
                              appropriation or fund account, the amount involved for
                              each violation, and the date on which the violation
                              occurred.

                               See appendix C for each violation date, amount, and
                               appropriation account title/Treasury symbol/fiscal year.

                          2.	 A determination as to who was at fault for the violation, to
                              include the name and position of all officers or employees
                              responsible and all circumstances surrounding their
                              involvement.

                               We determined that the Preparedness Directorate Director
                               of Business Operations inappropriately used program
                               appropriations to fund shared services requirements, which
                               caused the ADA violations. Additionally, we determined
                               that the contracting officers and the deputy chief of staff
                               who approved the shared services contracts and IAAs are
                               responsible for the ADA violations. We will provide the
                               names of these individuals under separate cover.

                          3.	 All facts pertaining to the violation, including the type of
                              violation, the primary reason or cause, any statement from
                              the responsible officer(s) or employee(s) with respect to
                              any extenuating circumstances, and any germane report by
                              DHS and/or NPPD counsel.

                               All 21 of the violations identified in appendix C are
                               31 U.S.C. § 1301(a) and 31 U.S.C. § 1341(a) type
                               violations. These ADA violations occurred because the
                               Preparedness Directorate elected to inappropriately use
                               program appropriations to fund a budget shortfall in shared
                               service requirements. In addition, these transactions
                               violated 31 U.S.C. § 1532 and section 503 of the FY 2006
                               DHS Appropriations Act, P. L. 109-90, and thus constituted
                               unlawful transfers, which the Preparedness Directorate did
                               not remedy.

                               DHS’ Preliminary Review of an Anti-Deficiency Act
                               Violation, Preparedness Directorate – Shared Services
                               memorandum, dated December 17, 2008, concludes that

                 The Preparedness Directorate’s Anti-Deficiency Act Violations for 

                   Fiscal Year 2006 Shared Service Administrative Assessments 


                                              Page 17
Appendix D
Response to the Office of the Chief Financial Officer

                               the Preparedness Directorate violated 31 U.S.C. § 1301(a),
                               31 U.S.C. § 1341(a)(1)(A), and 31 U.S.C. § 1517(a) when
                               it inappropriately used between $21.7 and $28.3 million in
                               FY 2006 program appropriations to fund shared
                               administrative services. DHS also concluded the
                               Preparedness Directorate’s controls and control policies
                               were insufficient at the time of the ADA violation.

                          4.	 A statement regarding the adequacy of the system of
                              administrative control prescribed by the DHS and
                              approved by the Office of Management and Budget.

                               Although DHS issued its Administrative Control of Funds
                               policy on February 12, 2010, NPPD has not established
                               controls to ensure compliance with financial and
                               appropriations law and regulations. Without these controls
                               in place, NPPD is at a higher risk of violating appropriation
                               law and financial regulations.

                          5.	 An analysis of any additional action taken by, or at the
                              direction of, the Department of Homeland Security and/or
                              NPPD, including new safeguards proved to prevent
                              recurrence of the same type of violation.

                               Although DHS has an Administrative Control of Funds
                               policy, NPPD has not established controls to ensure
                               compliance with appropriations law and financial
                               regulations. Without proper controls in place, NPPD is at a
                               higher risk of violating appropriation law and financial
                               regulations.




                 The Preparedness Directorate’s Anti-Deficiency Act Violations for 

                   Fiscal Year 2006 Shared Service Administrative Assessments 


                                              Page 18
Appendix E
Major Contributors to this Report

                    John Shiffer, Audit Manager
                    Sue Vernier, Auditor
                    Jose Benitez-Rexach, Auditor
                    Gary Alvino, Independent Referencer




                The Preparedness Directorate’s Anti-Deficiency Act Violations for 

                  Fiscal Year 2006 Shared Service Administrative Assessments 


                                             Page 19
Appendix F
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                The Preparedness Directorate’s Anti-Deficiency Act Violations for 

                  Fiscal Year 2006 Shared Service Administrative Assessments 


                                             Page 20

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
